                       National Science Foundation • Office oflnspector General
                       4201 Wilson Boulevard, Suite I-1135, Arlington, Virginia 22230

MEMORANDUM

DATE:           September 21,2012

TO:            Mary F. Santonastasso, Director
               Division of Institution and Award Support

               Karen Tiplady, Director
               Division of Grants and Agr e

FROM:          Dr. Brett M. Baker


SUBJECT:       Audit Report No. OIG-12-1-007
               University Corporation for Atmospheric Research


This memo transmits Mayer Hoffman McCann's report for the audit of 121 NSF cooperative agreements
awarded to the University Corporation for Atmospheric Research (UCAR), totaling $949 million,
reported on the federal financial report submitted for the period ended September 30, 2011. The audit
objectives were to identify costs claimed on the NSF awards that were not allocable, allowable and
reasonable, and determine ifUCAR had properly accounted for, segregated, and reported the funds for 13
American Reinvestment and Recovery Act (ARRA) NSF awards.

The auditors questioned $29,384 of claimed costs that were not in accordance with the award terms and
conditions. The audit also identified conference-related expenses as high risk for abuse, and found that
UCAR improperly and inconsistently reported program income. The audit included a review of 13
ARRA awards; and concluded that there was no concern regarding accounting for, segregating or
reporting of ARRA funds. Two other matters regarding management fees and contingency funds came to
the auditor's attention during this audit, but will be followed up on separately.

UCAR's response, dated September 10, 2012, agreed to repay over half of the questioned costs and
disputed the remaining, and stated that they believed that UCAR is already satisfying the other report
recommendation to closely monitor conference related expenditures and properly record and report
program income. UCAR's response is described after the findings and recommendations and is included
in its entirely in Appendix A of the audit report.

Please coordinate with our office during the six month resolution period, as specified by OMB Circular
A-50, to develop a mutually agreeable resolution of the audit findings. Also, the findings should not be
closed until NSF determines that all recommendations have been adequately addressed and the proposed
corrective actions have been satisfactorily implemented.

We are providing copies of this memorandum to the Vice President of Finance and Administration and
the Director of Budget and Finance at UCAR. The responsibility for audit resolution rests with the
Division of Institution and Award Support, Cost Analysis and Audit Resolution Branch (CAAR).
Accordingly, we ask that no action be taken concerning the report's findings without first consulting
CAAR at 703-292-8244.

OIG Oversight of Audit

To fulfill our responsibilities under Government Auditing Standards, the Office of Inspector General:

      •   Reviewed Mayer Hoffman McCann's approach and planning of the audit;
      •   Evaluated the qualifications and independence of the auditors;
      •   Monitored the progress of the audit at key points;
      •   Coordinated periodic meetings with Mayer Hoffman McCann and NSF officials, as necessary, to
          discuss audit progress, findings, and recommendations;
      •   Reviewed the audit report, prepared by Mayer Hoffman McCann to ensure compliance with
          Government Auditing Standards; and
      •   Coordinated issuance of the audit report.

Mayer Hoffman McCann is responsible for the attached audit report of UCAR and the conclusions
expressed in the report. We do not express any opinion on the audit report or the Schedules of
Questioned Costs attached to the report as appendices.

We thank your staff for the assistance that was extended to our auditors during this audit. If you have any
questions regarding this report, please contact Louise Nelson at 303-844-4689.

Attachment

cc:       Alex Wynnyk, Branch Chief, CAAR
University Corporation for Atmospheric Research


             Performance Audit of
                Incurred Costs
                     For

      National Science Foundation Awards
For Costs Claimed in the Federal Financial Report
    For the Period Ended September 30, 2011




                             MAYER HOFFMAN McCANN P.C.
                             Certified Public Accountants
                             3 Bethesda Metro Center, Suite 600
                             Bethesda, Maryland 20814
Executive Summary

The National Science Foundation (NSF) Office of Inspector General (OIG), engaged
Mayer Hoffman McCann P.C. (MHM) to perform a performance audit of $949,060,632 in
costs claimed and reported on the September 30, 2011 Federal Financial Report (FFR)
submitted to NSF by the University Corporation for Atmospheric Research (UCAR) for
NSF awards. The FFR included costs for 121 awards including 13 American Recovery
and Reinvestment Act (ARRA) awards from October 1, 2003, through September 30,
2011. The audit was conducted between February 28th, 2012 and August 21st, 2012.

From the transactions we reviewed, we identified $29,384 of NSF-funded questioned
costs, including         in related indirect costs. Additionally, we noted compliance and
internal control deficiencies in UCAR’s financial and award management practices that
could impact current and future NSF awards. Specifically:

   •   UCAR claimed costs for awards related to eight retirement parties, two
       anniversary celebrations, flowers for a workshop, bank fees, refreshments,
       meals, farewell parties, and wine and cheese socials that we considered
       unallowable, unallocable and/or unreasonable. This resulted in $29,384 of
       questioned costs.

   •   UCAR reported over $2.7 million in conference-related expenses. We tested a
       sample of these expenses and in light of the current environment and close
       scrutiny over conference-related expense spending; we have concerns that these
       costs are high risk for possible abuse.

   •   UCAR improperly and inconsistently reported program income on the audited
       FFR of $3,345,851 for award no. 404790. We confirmed that this program
       income was netted against award expenditures and thus the misreported amount
       is not questioned. However, UCAR should strengthen its internal controls for the
       reporting of program income to ensure that it is allocated to the correct award or
       that the amount of program income allocated is correct.

We did not identify any areas of concern with regard to ARRA funds. We found UCARs
accounting system properly accounted for, segregated, and reported the use of ARRA
funds.

To address these compliance and internal control deficiencies, we made three
recommendations to the Director of NSF’s Division of Institution and Award Support
(DIAS) to consider and resolve.

We also identified two other matters that came to our attention during the course of this
audit, but were unable to address prior to issuance of this report.

UCAR responded to the draft report on September 10, 2012. In its response, UCAR
stated that they are disputing $9,275 of direct costs and applicable indirect costs of
$3,346 as being allowable, allocable and reasonable. UCAR stated that the remaining
questioned costs are being transferred to its General Fund for various reasons. UCAR
stated that they will continue to be diligent regarding its management of conference-
related expenses. Finally, UCAR stated that its tracking and reporting of program
income are sufficiently robust and meet the accountability requirements as defined in
OMB Circular A-110.

The auditors considered UCAR’s response; however, we determined that the findings
and recommendations remain as stated. UCAR’s response to the findings identified in
our audit is described after the recommendations and included in its entirety in Appendix
A of this report. Our comments on UCAR’s responses follow each of their responses.

The findings in this report should not be closed until NSF has determined that all the
recommendations have been adequately addressed and the proposed corrective action
plans have been satisfactorily implemented.
Table of Contents

                      UNIVERSITY CORPORATION FOR ATMOSPHERIC RESEARCH
                                                                                                                                  Page

INTRODUCTION ............................................................................................................................ 1

AUDIT RESULTS ........................................................................................................................... 3

           Finding 1        Unallowable Costs Charged to NSF Awards ................................................... 3

           Finding 2        Improper Reporting of Program Income .......................................................... 4

RECOMMENDATIONS................................................................................................................... 6

OTHER MATTERS ......................................................................................................................... 6


 APPENDICES
   Appendix A – UCAR Response
   Appendix B – Audit Objectives, Scope and Methodology
   Appendix C – Schedule of Questioned Costs
   Appendix D – Schedule of Indirect Costs Questioned

 ACRONYMS

      ARRA                      American Recovery and Reinvestment Act
      BU                        Boston University
      CFR                       Code of Federal Regulations
      FFR                       Federal Financial Report
      FFRDC                     Federal Funded Research Development Center
      FIFO                       First in First Out
      GPM                        Grant Policy Manual
      NCAR                       National Center for Atmospheric Research
      NSF                       National Science Foundation
      MHM                       Mayers Hoffman McCann
      OIG                       Office of Inspector General
      OMB                       Office of Management and Budget
      PI                        Principal Investigator
      UCAR                      University Corporation for Atmospheric Research
      UOP/UCP                   UCAR Office of Programs / UCAR Community Programs
Introduction


The National Science Foundation (NSF) is an independent federal agency whose
mission is “to promote the progress of science; to advance the national health,
prosperity, and welfare; and to secure the national defense.” To support this mission,
NSF funds research and education across all fields of science and engineering, primarily
through grants and cooperative agreements to more than 2000 colleges, universities,
and other institutions throughout the United States.

NSF makes awards to external entities – primarily universities, consortia of universities
or nonprofit organizations – to undertake construction, management and operation of
facilities. One such award recipient is the University Corporation for Atmospheric
Research (UCAR).

UCAR, located in Boulder, Colorado, is a consortium of 77 university members and 24
undergraduate and masters’ degree granting institutions that have official ties through
UCAR’s Academic Affiliates Program. UCAR receives 90 percent of its funding from
NSF and other federal agencies. Its mission is to bring scientists together to research
conditions in the Earth’s atmosphere and assess how those conditions affect our
everyday life. UCAR receives funding from various federal agencies and private
organizations. Funding comes in the form of cooperative agreements, grants, contracts,
and donations.

The two major research components of UCAR are National Center for Atmospheric
Research (NCAR) and the UCAR Office of Programs (UOP) / UCAR Community
Programs (UCP). NCAR is a federally funded research and development center
sponsored by NSF. NSF and other federal agencies provide funding for NCAR, which
has a large scientific staff dedicated to exploring and understanding the atmosphere and
its interactions with the sun, the ocean, the biosphere, and human society. In addition to
conducting research, NCAR provides members, affiliates, and others with tools such as
aircraft and radar to observe the atmosphere and with the technology and assistance to
interpret and use these observations, including supercomputer access, computer
models, and user support. UOP consists of eight programs which create, conduct, and
coordinate projects that strengthen education and research in the atmospheric, oceanic,
and earth sciences.

As of January 2012, UCAR employed 1,539 employees: 990 under the NCAR program;
276 under UCP programs; and most of the remaining 273 in corporate and
administrative offices. For fiscal year 2010, UCAR expended $227 million, of which
$179 million was used for NCAR’s operation.

UCAR was selected for this audit because of concerns raised in previous audits,
including a 2011 NSF OIG audit, in which UCAR was a sub-grantee of an NSF award 1; a
2008 NSF OIG audit of UCAR’s Purchase Card and Timekeeping systems; and
management letter of the 2010 OMB Circular A-133 audit. Some of these reports

1
    NSF OIG Report Number OIG-11-012, Boston University Center for Integrated Space Weather Modeling.


                                                   1
yielded concerns, which indicated that there could be potential weaknesses in UCAR’s
internal controls over its financial and grant administration of NSF awards. Specifically,
the 2011 NSF OIG audit report identified concerns related to UCAR, as a NSF sub-
grantee, with its financial management practices that led to questioned costs including
management fees, depreciation, conference-related expenses, indirect costs charged as
direct costs, foreign travel and questionable cost share. The 2008 NSF OIG audit report
identified internal control deficiencies in financial and grant administration related to
purchase card expenditures and UCAR’s timekeeping system, and the 2010 OMB
Circular A-133 audit management letter identified a need for improved controls over
accountability of property.

UCAR had 121 active NSF awards with $949 million in total expenditures claimed on its
FFR for the period ended September 30, 2011. This includes 13 American Recovery
and Reinvestment Act (ARRA) awards totaling $18 million. As a recipient under the
American Recovery and Reinvestment Act of 2009, UCAR has additional requirements
to account for, segregate and report its ARRA expenditures and activity.




                                            2
Audit Results

As a result of the audit, we questioned $29,384 in unreasonable, unallowable and/or
unallocable costs claimed to NSF by UCAR, including               in related indirect costs.
Questioned costs are (1) costs for which there is documentation that the recorded costs
were expended in violation of the laws, regulations or specific award conditions, (2) costs
that require additional support by the grantee, or (3) costs that require interpretation of
allowability by NSF’s Division of Institution and Award Support. The final determination
as to whether such costs are allowable will be made by NSF. The ultimate outcome of
this determination cannot presently be determined. Accordingly, no adjustment has been
made to costs claimed for any potential disallowance by NSF.


Finding 1: Unallowable Costs Charged to NSF Grants

During our audit testing of other direct costs we identified 35 transactions in which
unallowable costs were charged to NSF grants. This resulted in total questioned costs of
$29,384, including            of other direct costs and       of related indirect costs.
Below is a description of the questioned transactions:

   a) 7 transactions in the amount of $9,160 for retirement parties were considered
      unreasonable and unallowable.
   b) 7 transactions in the amount of $7,840 for anniversary parties were considered
      unreasonable and unallowable.
   c) 1 transaction in the amount of $225 for the purchase of flowers for a workshop
      was considered unreasonable and unallowable.
   d) 19 transactions in the amount of $2,086 for the purchase of items such as food
      and beverages for staff meetings, farewell parties, and wine and cheese socials
      were considered unallowable.
   e) 1 transaction in the amount of $1,180 for overcharge bank service fees was
      considered unallocable.

2 CFR 230, Cost Principles for Non-Profit Organizations (OMB Circular A-122), Section
A. Basic Considerations, 3. Reasonable Costs, (a) states, in part: “Whether the cost is of
a type generally recognized as ordinary and necessary for the operation of the
organization or the performance of the award”

2 CFR 230, Cost Principles for Non-Profit Organizations (OMB Circular A-122), Section
A. Basic Considerations, 4. Allocable Costs, (a) states, in part: “A cost is allocable to a
particular cost objective, such as a grant, contract, project, service, or other activity, in
accordance with the relative benefits received.”

2 CFR, Part 215 (OMB Circular A-110) also requires that a federal award recipient’s
financial management system shall maintain “effective control over and accountability of
all funds, property and other assets.” NSF’s Award and Administration Guide, Chapter
5, Unallowable Costs, reiterates unallowable costs, such as food, pre-award costs,
general purpose equipment and other unnecessary and unreasonable costs should not
be charged to NSF awards.




                                             3
UCAR provided an additional explanation and a reconciliation of program income
received explaining that the credit card processing fees should have been allocated
between two separate workshops (CEDAR and the Space Weather) but erroneously
charged the full amount to the CEDAR workshop. As a result, $1,180 of credit card
processing fees was erroneously allocated to the wrong grant. UCAR noted that both
grants were NSF grants and are now closed. None of the activities referenced above as
questioned were necessary for the performance of the awards being questioned. In
addition, the grant budgets did not include the activities questioned above.

Additionally, as part of our audit, we tested $39,990 of costs claimed for various NSF
grants related to snacks, beverages and meals provided for workshops to determine
whether they were reasonable and necessary in light of the increased scrutiny related to
conference related expenditures in the Federal government as a whole. These costs
were determined to be allocable to the NSF grants; however, we could not conclude on
the reasonableness and necessity of them to achieve the grants objectives. Therefore,
we decided not to question these costs.

The Office of Management and Budget (OMB), in Memorandum M-11-35, Elimination
Excess Conference Spending and Promoting Efficiency in Government, dated
September 11, 2011, directed all Federal agencies and departments to conduct a
thorough review of the controls and policies associated with conference-related activities
and expenses. This memorandum cites a September 2011 Department of Justice (DOJ)
Office of Inspector General (OIG) audit report, which identified insufficient internal
controls to limit costs for planning and food and beverages for DOJ conferences.

Although these documents pertain to limitations established for Federal agencies, since
UCAR is approximately 90 percent funded by various Federal agencies, the same
limitations should be established. We believe that UCAR should encourage its staff to
become aware of the requirements to Cut Waste being promoted by the OMB and apply
it to the extent possible. During our audit period, a total of $2,794,157 in conference
related expenditures were charged to the NSF grants. Consequently, these should be
considered high risk expenditures that without close scrutiny could result in future
questioned costs for UCAR.


Finding 2: Improper Reporting of Program Income

During the testing of program income we noted that not all program income recorded in
the general ledger was reported in the FFR for the period ended September 30, 2011.
UCAR recorded $4,431,819 of program income in its general ledger and reported
$1,085,968 in its FFR. Program income in the amount of $3,345,851 for award no.
404790 was not reported in the FFR. We confirmed that this program income was
netted against award expenditures on the FFR and thus the misreported amount is not
questioned. However, UCAR did not properly or consistently represent its program
income in its reporting to NSF on award 404790.

2 CFR Part 215 (OMB Circular A-110), Subpart C, §21(b)(1), (b)(2), and (b)(3) requires
that a federal award recipients’ financial management system shall provide: (1) accurate,
current and complete disclosure of the financial results of each federally-sponsored
project or program; (2) records that identify adequately the source and application of


                                            4
funds for federally-sponsored activities; and, (3) effective control over accountability of
all funds, assuring that all funds are used solely for authorized purposes. Likewise,
NSF’s Grant Policy Manual (GPM), Section 301 indicates that UCAR is responsible for
prudent management of all expenditures and actions affecting its NSF grants; GPM
Section 410 also reiterates the requirements of 2 CFR Part 215 cited herein.

2 CFR 215, Administrative Requirements for Grants and Agreements with Institutions of
Higher Education, Hospitals, and Other Non-Profit Organizations (OMB Circular A-110),
Subpart C, 24. Program Income (b), states, in part: “program income earned during the
project period shall be retained by the recipient and, in accordance with Federal
awarding agency regulations or the terms and conditions of the award, shall be used in
one or more of the ways listed in the following.

       (1) Added to funds committed to the project by the Federal awarding agency and
   recipient and used to further eligible project or program objectives.

       (2) Used to finance the non-Federal share of the project or program.

       (3) Deducted from the total project or program allowable cost in determining the
   net allowable costs on which the Federal share of costs is based.”

UCAR staff explained that due to the First-In-First-Out (FIFO) method of accounting on
this award and prior awards for NSF base funding to NCAR, it was not possible to
determine the cumulative amount of program income received. Therefore, UCAR did not
report program income for this award in the FFR. Although UCAR staff were able to
identify where the program income was credited back to NSF award, thus the correct
amount of income and expenditures were ultimately charged to the award, the
appropriate amounts were not accurately reported on the FFR.

Additionally, UCAR should strengthen its procedures to verify that program income is
allocated to the correct award or that the amount of program income allocated is correct
by having additional interactions between the program administrators and the finance
office staff. The Principal Investigator (PI) and the department administrator for the grant
have the sole responsibility for determining to which award and the amount of program
income to be reported. An employee from the Finance area, with little knowledge of the
award, is responsible for entering the information into UCAR’s accounting system based
on the information provided by the department staff. There is currently no second review
or reconciliation by a finance staff to determine if the allocations are correct.




                                             5
Recommendations

We recommend that NSF’s Director of the Division of Institution and Award Support
(DIAS) address and resolve the following recommendations that UCAR:

1a.    Ensure that UCAR repays the $29,384 of questioned costs to NSF. In addition,
       ensure that UCAR implement controls so that only costs benefiting the awards
       and included in its budget are charged to federal awards.

1b.    Ensure that UCAR closely scrutinizes and monitors their conference-related
       expenditures to ensure that costs charged are clearly allowable and reasonable.

2.     Strengthens its internal controls to ensure that program income for all awards is
       properly and consistently treated, including some checks and balances to ensure
       that program income is recorded into the appropriate grant, and reported in its
       FFR.

Awardee’s Comments

Regarding recommendation 1a, UCAR stated that they are disputing $9,275 of direct
costs and applicable indirect costs of         as being allowable, allocable and
reasonable. UCAR stated that the remaining questioned costs are being transferred to
its General Fund for various reasons.

Regarding recommendation 1b, UCAR stated that they will continue to be diligent
regarding its management of conference-related expenses.

Regarding recommendation 2, UCAR stated that its tracking and reporting of program
income are sufficiently robust and meet the accountability requirements as defined in
OMB Circular A-110.

Auditor’s Response

MHM sustains its position that the questioned costs were not allowable, allocable or
reasonable. Our recommendation related to program income is intended to strengthen
the existing policies and procedures.


Other Matters

       Management Fees

UCAR charges a negotiated management fee to NSF under its Cooperative Agreement
with NSF to administer NCAR, a Federally Funded Research and Development Center
(FFRDC).     For the period of October 2003, through September 2011 UCAR charged
$4,901,877 in management fees related to the awards reported in the FFR submitted to
NSF for the period ended September 30, 2011. Of that total, $2,321,024 pertained to
direct NSF awards and $2,580,853 to awards made by other federal agencies that were
assigned to NSF to administer.


                                           6
The UCAR management fee is not directly tied to a specific reimbursable cost, but
instead is a predetermined set fee that is reimbursed to cover costs that are not
reimbursable through federal grants and organizational risk. UCAR has stated that
funds obtained through the management fee are necessary to maintain the health and
stability of the organization. However, UCAR incorporates the applicable cost principles
into its award agreements, therefore awardees are required to ensure that all costs
reimbursed by the federal government are adequately documented, reasonable and
allowable.

UCAR is already reimbursed for its indirect costs that are used to cover the
administrative and related costs that benefit the award but are not directly identifiable to
a particular award. The management fee is paid in addition to the indirect costs already
reimbursed, and UCAR is not required to provide any supporting documentation to
substantiate costs that would relate to this fee being charged.

A 2011 NSF OIG audit report found that UCAR charged a management fee for a
subaward agreement related to an NSF grant awarded to the Boston University (BU).
UCAR does not consider its NSF sub-awards to be NSF awards. Rather, these awards
are considered awards from the paying entity. UCAR considers its NSF sub-award from
BU to be a BU award, not an NSF award, and therefore UCAR is allowed to charge a
percentage-based management fee. We did not review the management fees charged
by UCAR as a subgrantee as these fees are not included in UCAR’s FFRs, thus they
were not part of this audit’s scope. Presently, this issue is going through NSF’s audit
resolution process.

Although this audit did not include a detailed review of indirect costs or the management
fee structure used by UCAR; it is noted because it was identified during the course of
this audit.


       Contingency Expenditures

UCAR’s proposal under award no. 1034857 (Wyoming Supercomputing Center
Construction Funds) included a contingency fee of 7.5% or $4,374,092 of the UCAR
NSF award total $48,075,144 and an overall project cost total of $62,695,317. There
was no explanation in the proposal budget narrative as to what risk or what the specific
use was associated with this contingency amount. OMB Circular A-122, Attachment B,
Section 8, Contingency Provisions, states that “Contributions to a contingency reserve or
any similar provision made for events the occurrence of which cannot be foretold with
certainty as to time, intensity, or with an assurance of their happening, are unallowable.”

As of its September 30, 2011 FFR, UCAR reported $70,227 of contingent expenditures
for this award. These expenditures were for construction payments and applicable
indirect costs associated with those payments. A complete review of the budget
proposal and resulting award expenditures related to whether these payments met the
OMB definition of contingency was not made during this audit.




                                             7
Appendix B: Objectives, Scope, and Methodology

At the request of the NSF Office of Inspector General, Mayer Hoffman McCann P.C.
conducted a performance audit of the costs claimed by UCAR on the Federal Financial
Report (FFR) for the period ended September 30, 2011.

The objectives of the audit were to:

   1. Identify all costs claimed on the NSF awards by UCAR that were not allocable,
      allowable, reasonable, and in conformity with NSF award terms and conditions
      and applicable Federal grant requirements for the period of expenses (October 1,
      2003-September 30, 2011) that were recorded by UCAR on its general ledger
      and claimed in its September 30, 2011 FFR submitted to NSF; and to

   2. Assess the adequacy of UCAR’s accounting system to properly account for,
      segregate and report the use of ARRA funds.

To accomplish the objective of determining allocability, allowability and reasonableness
of costs, we examined all awards for which costs were reported to NSF on the
September 30, 2011 FFR. This provided an audit universe of approximately $949
million, and approximately 843,188 transactions, across 121 individual NSF awards. To
select transactions for further review, we designed and performed automated tests of
UCAR data to identify areas of risk and conducted detailed reviews of transactions in
those areas. Our sample was comprised of 311 transactions with a value of
$46,803,896, representing almost five percent of the costs reported on the September
30, 2011 FFR.

Our work required reliance on computer-processed data obtained from UCAR and NSF.
At our request, UCAR provided detailed transactional data for all costs charged to NSF
awards included on the September 30, 2011 FFR. We assessed the reliability of the
data provided by UCAR by comparing costs charged to NSF awards within UCAR’s
accounting system to reported net expenditures on the FFR. We also observed the
parameters UCAR used to extract transactional data from its accounting system and
reviewed UCAR’s accounting system documentation. Based on our review and
observations, we found UCAR’s computer-processed data sufficiently reliable for the
purposes of this audit.

To accomplish the second objective of assessing the adequacy of UCAR’s accounting
system to properly account for, segregate, and report the use of ARRA funds, we
examined all awards funded with ARRA funds that were reported to NSF as part of the
FFR for the period ended September 30, 2011. We confirmed that each one of the 13
grants funded by ARRA were segregated by having its own set of account keys. These
account keys provide a unique code by cost category, by grant, that allows UCAR staff
to track these costs separately. The allowability of the costs reported for these awards
were sampled and tested in conjunction with the other NSF awards. In addition, we
reviewed the quarterly reports for 3 of the awards to verify completeness and timeliness,
with no exceptions noted.
We did not review or test whether the data contained in, or controls over, NSF’s
databases was accurate or reliable; however the independent auditor’s report on NSF’s
financial statements for fiscal years 2010 and 2011 found no reportable instances in
which NSF’s financial management systems did not substantially comply with applicable
requirements. 2 As this office monitored the work of the auditor, we believe a reasonable
basis exists for relying on the accuracy and completeness of NSF’s data.

In assessing the allowability of costs reported to NSF by UCAR, we also gained an
understanding of the internal controls structure applicable to the scope of this audit
through interviews with UCAR staff, review of policies and procedures, conducting
walkthroughs as applicable and reviews of general ledger transactions and accounting
system and database documentation. We determined UCAR’s compliance with its
policies and procedures, as well as the following:

    •   Office of Management and Budget Circular A-122, Cost Principles for Non-Profit
        Organizations (2 C.F.R., Part 230)
    •   Office of Management and Budget Circular A-110, Uniform Administrative
        Requirements for Grants and Agreements with Institutions of Higher Education,
        Hospitals, and Other Non-profit Organizations (2 C.F.R., Part 215)
    •   National Science Foundation Proposal and Award Policies and Procedures
        Guide, Part II: Award & Administration Guide
    •   National Science Foundation Federal Demonstration Partnership General Terms
        and Conditions
    •   NSF Agency-Specific Requirements
    •   Award-specific terms and conditions
    •   Generally-accepted Accounting Standards

We did not identify any instances of fraud or illegal acts. We identified instances of
noncompliance resulting in questioned costs that are discussed in the relevant sections
of this report. In addition, we identified two areas for follow up, management fees and
contingency expenditures, as identified in the “other matters” section of this report.

UCAR was selected for this audit because of concerns raised in previous audits,
including a 2011 NSF OIG audit as a sub-grantee of Boston University; a 2008 NSF OIG
audit of UCAR’s purchase card and timekeeping system; and management letter from
2010 OMB Circular A-133 audit. Some of those reports yielded concerns, which
indicated that there could be potential weaknesses in UCAR’s internal controls over its
financial and grant administration of NSF awards. Specifically, the 2010 NSF OIG audit
report identified UCAR as a NSF sub-grantee with its financial management practices
that led to questioned costs including management fees, depreciation, conference-
related expenses, indirect costs charged as direct costs, foreign travel and questionable
cost share. The 2008 NSF OIG audit report identified internal control deficiencies in
financial and grant administration related to purchase card expenditures and UCAR’s
timekeeping system, and the 2010 OMB Circular A-133 audit management letter
identified a need for improved controls over accountability of property. From the


2
 The financial statements were audited by an independent public accounting firm operating under a
contract monitored by NSF’s Office of Inspector General.
transactions we tested during this review, we did not identify any issues related to the
audit findings identified previously.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions, based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions.

We held an exit conference with UCAR officials on August 21, 2012.
    Appendix C: Schedule of Questioned Costs



                 University Corporation for Atmospheric Research
                                   Schedule of Questioned Costs
                                            Summary
    Expense Category                Grant       No. of      Amount                 Transaction
                                    No.      Transactions                          Description
Other Direct Costs - Cafeteria      404790        19         $ 10,393.00    Retirement Party, Employee
Food & Materials                                                            Farewell Party, Flowers, and
                                                                            Food & Beverages for Staff
                                                                            Meetings
Other Direct Costs - Cafeteria      618847        2          $       6.00   Food & Beverages for Staff
Food & Materials                                                            Meetings

Other Direct Costs - Cafeteria      713980        1          $      20.00   Food & Beverage for Staff
Food & Materials                                                            Meetings

Other Direct Costs - Credit Card    824701        1          $   1,180.48   Credit Card Processing Fee
Processing Fee
Other Direct Costs - Cafeteria      833450        6          $   7,660.00   Anniversary Party
Food & Materials

Other Direct Costs - Cafeteria      856145        6          $   1,232.24   Retirement Party, Anniversary
Food & Materials                                                            Party, Wine & Cheese Socials,
                                                                            Food & Beverage for Staff
                                                                            Meetings

Total Other Direct Costs Questioned                         $ 20,491.72

Related Indirect Costs Questioned (Appendix D)              $    8,892.11
Total Questioned Costs                                      $ 29,383.83
Appendix C: Schedule of Questioned Costs
Notes:

A) 2 CFR, Part 230, Cost Principles for Non-Profit Organizations (OMB Circular A-122), Section A. Basic Considerations, 3.
Reasonable Costs, (a) states, in part: “Whether the cost is of a type generally recognized as ordinary and necessary for the
operation of the organization or the performance of the award.”
B) 2 CFR, Part 230, Cost Principles for Non-Profit Organizations (OMB Circular A-122), Section A. Basic Considerations, 4. Allocable
Costs, (a) states, in part: “A cost is allocable to a particular cost objective, such as a grant, contract, project, service, or other
activity, in accordance with the relative benefits received.”
C) 2 CFR, Part 215 (OMB Circular A-110) also requires that a federal award recipient’s financial management system shall maintain
“effective control over and accountability of all funds, property and other assets.” NSF’s Award and Administration Guide, Chapter
5, Unallowable Costs, reiterates unallowable costs, such as food, pre-award costs, general purpose equipment and other
unnecessary and unreasonable costs should not be charged to NSF awards.
